                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E.
                                                      Washington, DC 20002




                             Assistance to US Marshal Service
                                   Case Number 08-023
                                     August 17, 2010

The United States Marshal’s Service requested assistance in obtaining Amtrak ticketing
documentation relative to an Amtrak passenger who was a defendant in an International child
abuse prosecution. This information was needed to determine the whereabouts of the individual
during certain time frames. The individual was convicted of Child Exploitation and received a
thirty year prison sentence.
